U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 9, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Douglas Brownback, et al. v. James King, No. 19-546
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was granted on March 30,
2020. On behalf of both parties, we respectfully request that petitioners’ time to file their opening
brief and the joint appendix be extended to and including Friday, June 19, 2020. We further request
that respondent’s time to file his brief be extended to and including Monday, August 24, 2020.
Under this Court’s rules, petitioners’ reply brief would be due 30 days later (or at the time specified
in Rule 25.3).
Counsel for both parties consents to these extensions of time.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0546
BROWNBACK, DOUGLAS, ET AL.
JAMES KING

PATRICK M. JAICOMO
INSTITUTE FOR JUSTICE
901 N. GLEBE RD
STE. 900
ARLINGTON, VA 22203
616-831-1700
PJAICOMO@IJ.ORG

